                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

I l E A I           1   File Number: 193080034                                  I   Date: 16 May 2002


Il   Subject: Closeout Memo                                                                 Page 1 of 1


          There was no closeout written at the time this case was closed. The following information was
          extracted fi-om the file in conformance with standard closeout documents.

          Our office was informed that the subject' was alleged to have duplicate awards made to subject's
          company under the SBIR programs of 3 federal agencies2. One agency suspended the award in 1993;
          $1.4 million in grants and contracts were terminated. The subject's cornpang agreed to a civil
          settlement of $530,000. The subject, his wife, and his brother-in-law4 each agreed to a 3-year
          government- wide debarment. The subject's company was dissolved.

          The attached documents constitute the closeout for this case.




          ' William Chan
          2
              NSF, NASA, and DOD SBIR program
              Electro-Optek
              Michael Lee



                         Prepared by:                   Cleared by:
                                                                               11
11                      Agent:          Attorney:     Supervisor:
                                                                      I        11
                                                       US ATTORNEY LA
                                                         PA0 US A'lUl'Y




                                                                          NORA M. MANELLA
                       NEWS                                                  United States Attorney
                      RELEASE                                             Central District o f California
                 F O XImmediate Distribution

                                                                                      #96-068
     CONTACT               L
                                                                                      March 25, 1996
     C u o h Lev*,   Public AffJlr OMcor (215) M m 7

                                                                                      AUSA Hong Dea
                                                                                      (213) 894-2450



                       SCIENTIFIC FRAUD CASE SEITLED FOR 5 2 MILLION

           A scientific research company,. Electro-Optek Corporation, of Torrance, Ca.,

senled a civil fraud suit today filed by the U.S. Government alleging that the
 .-,-...
..


~'grnpanyhad made false statements in scientific research proposals and had

submitted false billings ro the Government in connection with scientific research

grants, As part of rhe settlemen1 agreement, the company's owners and officers,                             .


William S. Chan and Felicia Chan, of San.Pedro and Michaer Lee, of Torrance, will

pay the government approximarely $530,0015 in cash and will lose almost $ 1 -5

million in grants that had been previously awarded to them, announced United

States Attorney Nora M. Manella. The defendants also agreed not to apply for any

future federal funding for three years.
 .. . ,

  .    The Elecrro-Oprek defendants were charged with fraud against the

Government's Small Business Innovation Research ISBIR) program. The SBlR

program grants money to deserving small companies for scientific research in order

to promote small business, encourage scientific innovation, and assist with the

commercialization of scientific discoveries. The grants are made through 1 1

different federal agencies such as rhe National Science Foundation, the National

Aeronautics and Space Administration, and the Department of Defense. The
                                      US ATTORNEY LA
                                        pno US ~m




defendants were accused of knowingly and repeatedly applying for and receiving

SBlR granzs from the agencies for research that had already been completed under

grants awarded to other agencies. Defendants were also accused of charging t h e

Governmenr for the costs of engineering labor by Felicia Chan and Michael Lee

when, in fact, they dld not perform engineering work.

      The Goveriqment also uncovered evidence that in theif SBlR proposats, the

defendants had plagiarized from a scientific publication and misrepresenred the

academic qualifications of one of their researchers. The Government concluded

that the practices of the company and its owners seriously dnv:iated from accepted

practices in science or engineering, which constitutes rnlsconduct in science under

the Narional Science Foundation's regulations.

      The Government had filed its complainr against the Elec~ro-Optekdefendants

alleging over $1.4 million in damages in 1994. According to Assistant Unired

States Anorney Hong Dea, who handled the case, in one of the first actions of its

kind in the nation under the Federal Debt Collection Procedures Act of 1990, the

Government had obtained court orders putting liens on defendants' real estare and

freezing heir bank accounts so that monev could not be withdrawn prim to trial.

      This case resulted from an investigation led by the Officeof Inspector

General tot the National Science Foundation, and was assisted by the Inspector

General's Office for NASA, the Criminal Investigative Service of the Department of

Defense, and the Unlred States Marshals Service.
NORA M. MANELLA
United States Attorney
LEON W. WEIDMAN
Assistant United States Attorney
Chief, Civil Division
HOWARD F. DANIELS
Assistant United States Attorney
Chief, Civil Fraud Section
HONG S. DEA                                                                       FILED
Assistant United States Attorney                                    C L E ~ K 'J.s.
                                                                               ,    ~!::;R!cT
                                                                                            -. ~5'-7-
                                                                                                . . ,.
     Room 7516, Federal Building                                     1
     300 North Los Angeles Street                                                        !<.   .-
                                                                                    22
                                                                                                z-



     Los Angeles, California 90012                                        ! i ,~
                                                                              '~.                    i
     Telephone : ( ~ r j '894
                          ) , -2450                                                                  j

                                                           :E;JTRAL DlSTRlCT OF CAUFGFiN
                                                           .-..,.
                                                                                                          '


                                                            .
                                                           .-
                                                                q                  DEPi '.           7-




                                   STATES DISTRICT COURT
                                       DISTRICT OF CALIFORNIA


UNITED S                               1    NO. CV 94-0804-RAP(JRx)
                                       1
         Plaintiff,
         v.
ELECTRO-OPTEK CORP.,
WILLIAM S. CHAN, FELICIA               1
CHAN, and MICHAEL LEE,                 1
         Defendants.


         WHEREAS plaintiff United States of America filed the
captioned action alleging violations of the False Claims Act, 31
U.S.C.        # 3729 &   sea.,   by defendants Electro-Optek Corporation
("EOC"), William S. Chan, Felicia Chan, and Michael Lee
(collectively the "EOC defendants");
         WHEREAS the parties have entered into an agreement
("Agreement") to settle this action by which the EOC defendants
release and pay to the.United States certain of their monies
      8

 1 \/heldin accounts ("Bank Accounts") in financial institutions

 2   ~i ("Banks"), and the parties mutually release certain claims; and
     1.



                   WHEREAS that Agreement, a copy of which is attached as
 4            exhibit   A, will take effect upon the Court's order implementing
     i/ the       Agreement and dismissing this action with prejudice;
      !
 6   1I
                   IT IS HEREBY STIPULATED AND AGREED by and between the
              United States, Electro-Optek Corporationr William S. Chan,
     ,I Felicia Chan, and Michael Lee, through their attorneys af
              record, that:

lo li              1)    This action, CV   94-0804-RAP, be dismissed with
     '
11   II prejudice;
                   2)    The parties shall perform the covenants and conditions

l3   1I       of their Agreement that is Exhibit A;

   1 stipulatedTheorderCourtandretain
     i
                   3)                 jurisdictian to enforce this
l4
l5 i
     I                          the Agreement;
          4)   The writs of garnishment previously served by this
      '1 Court on the following .Banks and Bank Accounts in this action be
17
      'I quashed and immediately replaced by this stipulated order:
18    !i
19    1           BANK
                   Home Savings of America
                                                        ACCOUNT NUMBER

20                 27319 Hawthorne Blvd.
21    i            Rolling Hills Estates, CA 90274


         11        El Segundo, CA -90245

                   Wells Fargo Bank
                   Puente Hills
                   17799 East Colima Blvd:
                   City.of Industry, CA 91748
.
 1 11
 2 ij

 3 11
 4 11

 5 11
      ,




      I
            Wells Fargo Bank
            Torrance-Del. Amo
            21323 Hawthorne Blvd.
            Torrance, CA 90503

            Wells Fargo Bank
            Wilshire-Ardmore
            3550 W i l s h i r e Blvd.
            LOS Angeles, CA         90010
                                                                       j)       -
                                                                                I




                                                                                -
 6          I m p e r i a l Bank                                       k)
     :!     9920'South        L a Cienega Blvd.
 7   /I     Inglewood, CA ,903 0 1

 8 I/       ~ e p u b i i cBank
            23133 Hawthorne Blvd.
 9   /I     Terrence, CA 90509

10 11
                                   -
            C a l i f o r n i a F e d e r a l Bank                     P)
            30019 Hawthorne Blvd.
     I(     Rancho P a l o s Verdes, CA 90774
l2   1i     5)      For each of t h e Bank Accounts i d e n t i f i e d a s i t e m s "a"

l3 lthrough            i n paragraph 4 above, t h e r e s p o n s i b l e Bank s h a l l
l4 llprovide t o t h e United S t a t e s a c a s h i e r ' s check f o r t h e . f u l l
Is   llamount .of t h e funds i n t h e Bank Account, which c a s h i e r s check
l6 l s h a l l be made payable t o 'United                 S t a t e s Department of Justice1I
     I)
l7 land mailed by c e r t i f i e d r e t u r n - r e c e i p t m a i l , w i t h i n   7 days of




                                                                                    -
l8 !ithe Banks       r e c e i p t of t h i s . s t i p u l a t e d o r d e r , t o :
     il
                    Hong S. Dea
                    A s s i s t a n t United S t a t e s Attorney
                    300 N. Los Angeles S t r e e t
                    F e d e r a l Building, Room 7516
                    Los Angeles, CA 90012'
22   1I     6)      Republic Bank, from Bank Account No.

                                            i n paragraph 4 above, s h a l l pay t o t h e
     i l i d e n t i f i e d a s i t e m "ow@

24 !: I ~ l e c t r o - o p t e kCorporation Defined B e n e f i t Pension P l a n (the I1EW
     I:I
2s Pension P l a n M ), t h e amount of $20,523.24 by c a s h i e r ' s check,
26 lwhich c a s h i e r I s check s h a l l be mailed by c e r t i f i e d r e t u r n -
27 1
     I
    !I'receipt mail, .within 7
    :I
                                     days of the Republic Bank's receipt of
    ,/thisstipulated order, to the EOC pension Plan in care of:
                             Steven F. Spierer, Esq.
                             Spierer & Woodward
                             707 Torrance Boulevard, Suite 200
                             Redondo Beach, CA 90277
5   I!           7)    ~ e ~ u b l iBank
                                     c   shall pay to the United States the funds
         I


   !! in Bank Account No.
    ii                                          net of the payment in paragraph
'I ;;1 6 above, by means of        a cashier's check under the terms and
             conditions set forth in paragraph 5 above.
    il
9   ij            8)   Defendant EOC, by and through its officers Defendants
lo I! William S. Chan and ielicia Chan, shall take all necessary steps
             to accomplish the following:
                       a)    Payment of all the EOC Pension Plan's liabilities
             other than those to EOC Defendants;
                       b).   Payment of any remaining balance of funds in the
             EOC pension Plan to the United states in the manner described in
             paragraph 5 above;
                       c)    Termination of the EOC Pension Plan; and
                       d)    service on counsel for the United states in this
             action of a financial statement setting Forth and verifying the
             distribution of the EOC Pension Plan assets and the termination
             of the Plan pursuant to this stipulated order.
                  Defendants EOC, William S. Chan and Felicia Chan shall.make
             best efforts to.accomplish the foregoing as soon as practicable
             following this stipulated order.
                  9)   The United States' claim to and garnishment of monies
                                                        1 - (
             in the California Federal Bank account (number
                   i d e n t i f i e d as i t e m "pW i n paragraph 4 above s h a l l be

     11 r e l e a s e d .
 3   I'
     II          10)            The United S t a t e s s h a l l serve a copy of t h i s

 4 11: s t i p u l a t e d o r d e r on each of t h e Banks i d e n t i f i e d i n paragraph 4
     'above w i t h i n f i v e days of its r e c e i p t of a copy of t h i s
 5 11
     i(
 6 s t i p u l a t e d o r d e r signed by t h e Court.
 .   i
 7   !I          11) Counsel f o r t h e EOC Defendants s h a l l serve a copy of
     ii t h i s s t i p u l a t e d o r d e r on t h e EOC pension Plan a d m i n i s t r a t o r and
     I(
 9 11
      on t h e P l a n ' s accountant w i t h i n f i v e days of t h e i r r e c e i p t of a
    ' c o p y of t h i s s t i p u l a t e d o r d e r signed by t h e Court.
10 I!                       I



11   ii   DATED:        ,\{&~PL-          76 ,    1996.

                                                          NORA M. MANELLA
                                                          United S t a t e s Attorney
                                                          LEON W. WEIDMAN
                                                          A s s i s t a n t United S t a t e s Attorney
                                                          Chief, C i v i l - D i v i s i o n   .
                                                          HOWARD F. DANIELS
                                                          Assistant United S t a t e s Attorney
                                                          Chief, C i v i l Fraud Division




                                                          Assistant! ~ b i t e dS t a t e s Attorney
                                                                     ...J    '

                                                          Attorneys f o r P l a i n t i f f
                                                          United S t a t e s of America


                                '
                                )A WL11       ,   1996.
22   /i                                                   LAW OFFICES OF EDWARD ROBINSON


23   I1                                                    -L       b+-.
                                                          EDWARD ROBINSON, ESQ.
24 11
                                                          Attorney f o r Defendant
                                                          W i l l i a m S. Chan
                     1   .   .-
                    - ! !
          DATED:                      ,   1996.




                                                  STEVEN SP~EEEW,,$sQ.

 5   1                                                         :/
                                                  Attorney for Defendant
 6   1                                            Electro-Optek Corp.

 7 ''DATED:R@$
   11                    19       ,   l996.,

     /                                            LAW OFFICES OF SCOTT S. FURSTMAN



                                                  SCOTT S. FURSTMAN, ESQ.
                                                  Attorney for Defendant
                                                  Michael Lee




                                                  Attorney for Defendant
                                                  Felicia Chan


                                               O R D E R
               IT IS ORDERED THAT:
               1)   This action, CV 94-0804-RAP, is dismissed with
   1)
22 prejudice :

23 1
               2)   The parties shall perform the covenants and conditions
   1
24 of their Agreement that is Exhibit A;

25 1
               3)   The Court retains jurisdiction to enforce this order

   1
26 and the Agreement;
     I
27   I1
     1 II             4)     The writs of garnishment previously served by this
    2 li~ourt
            on the following Banks and Bank Accounts in this action
    3 (are quashed and immediately replaced by this order:

    4 11              BANK                                ACCOUNT NUMBER




                                                                -
                      Home savings of America




                                                                -
    5 I!
         .j           27319 Hawthorne Blvd.
    6 11              Rolling Hills Estates, CA 90274
         ;I
     7 jl
                      Aerospace Federal Credit Union
                      2350 East El Segundo Blvd.          :;
    8    /I
         I        '
                      El Segundo, CA 90245                 e)

         i'           Wells Fargo Bank                     9)
                                     -
'




         ~i           Puente Hills




                                                                -
    10
                      17799 East Colima Blvd.
         1
          I


    11                City of Industry, CA 91748
                      Wells Fargo Bank
                      Torrance-Del Amo
                      21323 Hawthorne Blvd.
                      Torrance, CA 90503
    14 i              Wells Fargo Bank                     j)
    15   I1           Wilshire-Ardmore
                      3550 Wilshire Blvd.
                      Los Angeles, CA 90010
    16    1
                      Imperial Bank

    18   1/            Inglewood, CA   90301
                      Republic Bank
                      23133 Hawthorne Blvd.
                      Torrence, CA 90509

                      California Federal Bank
                      30019 Hawthorne Blvd.
                      Rancho Palos Verdes, CA 90274
              I
    23    1            5)    For each of the Bank Accounts identified as items "aw
                  through @'nw in paragraph 4 above, the responsible Bank shall
    25 provide to the United States a cashier's check for the full
          !I

          (
    26 amount of the funds in the Bank Account, which cashier's check
    27 shall be made payable to @@UnitedStates Department of Justice"
    28
                                                   7
1 ,/and mailed by c e r t i f i e d r e t u r n - r e c e i p t m a i l , within 7 days of




                                                                              -
     :I
2 (ithe Banks1 r e c e i p t of t h i s o r d e r , to:
                             Hong S. D e a
                             A s s i s t a n t United S t a t e s Attorney
                             300 N. Los Angeles S t r e e t
                             Federal Building, Room 7516
                             Los Angeles, CA 90012
     11
6    1                  6)   Republic Bank, from Bank Account No.

7    /'1I     i d e n t i f i e d as i t e m luouli n paragraph 4 above, s h a l l pay t o the

8 1 Electro-Optek Corporation Defined Benefit Pension Plan ( t h e "EOC
91
     '1
    Pension Plan") , the amount of $20,523.24 by c a s h i e r ' s check,
     i]
10 j / which c a s h i e r ' s check s h a l l be mailed by c e r t i f i e d return-
      !
       ' r e c e i p t m a i l , w i t h i n 7 days of t h e Republic Bank's r e c e i p t of
l1   !I
   this o r d e r , t o t h e EOC Pension Plan i n care of:
12
                                    Steven F. S p i e r e r , Esq.
13                                  S p i e r e r & Woodward
                                    707 Torrance Bou.levard, S u i t e 200
14                                  Redondo Beach, CA 90277

ISI   (     7)               Republic Bank s h a l l pay t o the United S t a t e s the f ~ d s

l6 'I i n sank Account No.
      1!(                                  ,                n e t of t h e payment i n paragraph
l76 above, by means of a c a s h i e r s check under the terms and
      !I
      1
18 conditions set f o r t h i n paragraph 5 above.
      (1                8)   Defendant EOC, by and through its o f f i c e r s Defendants

   I1
2o W i l l i a m S. Chan and F e l i c i a Chan, s h a l l t a k e a l l necessary s t e p s
       I

21 1 t o            accomplish the following:           .



211             .   .
                             a)     Payment of a l l the EOC Pension P l a n u s l i a b i l i t i e s

23 o t h e r than those t o EOC Defendants;
24        11   b)   Payment of any remaining balance of funds i n the
   i                                               4


25 11EOC Pension Plan t o the United S t a t e s i n t h e manner described i n
          1
26 paragraph 5 above;

27        1
          I
                             c)     Termination of the EOC Pension Plan; and
28        1
     1 II                    d)   Service on counsel for the united States in this

     2 ,laction of a financial statement setting forth and verifying the
         'I



                 distribution of the EOC Pension Plan assets and the termination

     4 11'of the Plan pursuant to this order.

     5   i/     Defendants EOC, William S. Chan and Felicia Chan shall make
         1 best efforts to accomplish the foregoing as soon as practicable
     7 1:I following         this order.

     8 1
                9)           The United States' claim to and garnishment of monies

     9
                                                       1 - 1
         i in the California Federal Bank account (number
                       identified as item "pW in paragraph 4 above is released.
                       10) The United States shall serve a copy of this order on
-   11   i         .   - -                  -              -   -            .- --

         'each of the Banks identified in paragraph 4 above within five
    12   I

    14
         I       days of its receipt of a copy of this order signed by the Court.
                       11) Counsel for the EOC Defendants shall serve a copy of
                 this order on the EOC Pension Plan administrator and on the
    15
         I
                 Plan's accountant within five days of their receipt of a copy of
    16   j
                 this order signed by the Court.
    17 ]
                                  3
                                  '
             I   DATED: March 3/ , 1996.
    18 11
                                                        RICHARD A. PAEZ
                                                 UNITED STATES DISTRICT JUDGE
                                                I. PARTIES
                       1.     This Settlement Agreement (llAgreementll)
                                                                     is entered
 4 11
   'I into this
 5 I!

 ti   1 Attorney
    'the United States of America, acting through the United States

      Ii                     for the Central District of California, and defendants,

 8    ! Electro-Optek             Corporation, William S. Chan, Felicia Chan, and

 9
      1 Michael Lee              (referred to collectively as the I1EOC Defendantsu1.
                                                                                    )



      i~                                      11.   RECITALS
11 lj
                       2.     On February 4, 1994, the United States filed a

l3 1          complaint against the EOC Defendants in the United States

l4 1
              District Court for the Central District of California bearing
   1          case No. CV 94-0804-RSWL (later reassigned and redesignated         (3V

              94-0804-RAP) and styled United States of America v. Electro-
16
17    1       O ~ t e kCorporation, William S. Chan, Felicia Chan. and Michael

18 -  1 Lee
      !            (the "Complaintw).       The Complaint was filed pursuant to and

19    I       charges violations of the False Claims Act, as amended, 3 1

20    1       U.S.C.        SS 3729-33 and federal common law.

21        1            3.     The Complaint alleges that the EOC Defendants
          'committed fraud o n t h e United States and, in particular, its
22
              agencies the National Science Foundation, the National
23
21     I! Aeronautics and Space Administration, and the Department of

25     1 arising from the EOC Defendants1 false statements and false or
       '1
          Defense. It seeks damages, civil penalties, and other relief

26
       11 fraudulent claims made in the course of obtaining, performing,
27     !!
 I ,I and receiving monies for grants and contracts with the United

 2 11 States under the Small Business Innovation Research ("SBIRR)
 3 11 program. The alleged fraud consisted of EOC Defendants: a)
 4 I1 applying for and receiving multiple awards of contracts for

 5 il duplicative scientific research; and b) claiming and receiving
             monies for engineering labor that, in fact, was not performed as
 6 11
 ,li     i
              claimed.
         I         4.     The United States, through the National Science
 8I
 9 1 Foundation, also uncovered evidence that the EOC Defendants: 1)

10 11
              plagiarized in an SBIR proposal a scientific publication written

11 I by others; and 2) misrepresented in two SBIR proposals the
     1
12 academic qualifications of an EOC employee who was to perform
     'the proposed research.              The United States concludes that these
13   j
     :practices and those alleged in the Complaint seriously deviate
14 1
     I

15   / from        accepted practices in science and engineering under

l6
17 11
     1
     I
     '        45 C.F.R.

                   5.
                          §   689.1(a) (1).
                          In connection with the filing of the complaint, the
              United States also sought and obtained certain pre-judgment
18 11I
              remedies to preserve Defendantsa assets as payment for the
l9 )1 claimed damages and penalties. Included among those remedies
2o 1 was the prejudgment garnishment of monies in accounts held by
21 I
     Defendants, individually or jointly, at certain financial
22
   1
23 I
              institutions (hereinafter referred to respectively as the WBank

24 1
         I                                    .
              Accountsa1and the IaBanksaa) The Bank Accounts are as     follow^,

         'with their balances as reported by the Banks at the time of
25 I
         1
26 garnishment :
         il
1    !I              BANK                                 ACCOUNT NUMBER        ?mmz
      Home Savings of America                                               $    3,106.67
     127319 Eavthorne Blvd.                                                     23,625.45
3
     ,!Rolling
     ~i
               H i l l s E s t a t e s , CA 90274
     I'   Aerospace Federal Czedi t Union                                        7,954.55
     '    2350 East El Segundo Blvd.
          E l Segundo, CA 90245                     e)
                                                    f
                                                                                23,318.46
                                                                                 5,578.17
                                                                                15,503-42
s-   li
   Wells Fargo Bank                                 g)
6 j(Puente ills
     :!I7799 East Colim Blvd.
     " C i t y of IAduStry, CA 91748
7 11
  'Wells Fargo Bank
     1
8 Torrance-Del Am0
     I
          21323 Eawthorne Blvd.
          Torrance, CA 90503
9 !:I
      I
lo   1
      :Wells Fargo Bank
       Wilshire-Ardmore
       3550 W i l s h i r e Blvd.




                                                          -
             Imperial Bank
             992'0 South La Cienega Blvd.
             Inglevood, CA 90301
l4   1i Republic   Bank
        23133 a a v t h o r n e ~ l v d .
15 I Torrenee, CA 90509
   I
l6 " C a l i f o r n i a F e d e r a l Bank         P)                           5,647. 09
   1 30019 Eavt.horne Blvd.
17 1 Rancho Palos Verdes, CA 90274
18 I!                6.     Account No.                  at Republic Bank, identified as
1)    il
      I
              iten      in    paragraph 5 above and hereinafter referred to as the
      1
                     8808@

20 88RepublicPension Accountn, is an account holding funds for the
21 Electro-Optic Corporation Defined Benefit Pension Plan (the "EOC
                      1


22 Pension PlanH).                     The EOC Defendants represent that as of March
         1
21 3 1 , 1996 : a) the EOC Pension Plan will have assets outside the
         1
24 Republic Pension Account +hat total $ 1 0 2 , 3 6 2 . 7 6 : b) the Plan
         /I
25 will have liabilities to Plan beneficiaries (former EOC

         1I
26 employees exclusive of the EOC Defendants) and for legal,

          I
27 accounting and administrative services that total $ 1 2 2 , 8 8 6 0 0 0 ;
 1         land      C) therefore, $20,523.24 will be needed by the plan-from the
2 ilRepublic Pension Account to satisfy the Plan's liabilities.
                             Account No. (                 at California Federal
J              bank,    identified as item ltpWin paragraph 5 above and

5 !I' hereinafter referred to as the Val-Fed.Account", is held by
6 Defendant Felicia Chan as trustee for her mother, Lillian Lee.
     I

7    il                8.    In consideration of the recitals and mutual covenants
8 ,land conditions contained herein and in order to avoid the
  i
9 'luncertainty and expense of litigation, the United States and the
      !
10 11 EOC Defendants e n t e ~into this Agreement to settle the Complaint
     .Ii
l1 and agree as follows:
     !
                                        .
12 i
                                       111- TERMS OF AGREEMENT

l4   1 United States
                 The EOC Defendants hereby release and pay to the
                       9.
                     any and all monies that they may own, individually

16   1I
               or jointly, in the Bank Accounts identified as items "a" through
               "nu in paragraph 5.
17 il
      il
                       10.   The EOC Defendants hereby release and pay to the
18.1I
      ,I
l9 United States any and all monies that they may own, individually

20
      1 or jointly.            in the Republic Pension Account identified as itma

21    i1l      "0"   in paragraph 5 above, except for the amount necessary to pay
     EOC Pension Plan liabilities, which amount is $20,523. 24 as
22 i
23    $
   'calculated in paragraph 6 above and is hereby released and paid
   !lto the EOC Pension Plan for the sole purpose of paying its
24 1

2s
          1I
     liabilities as . identified in paragraph 6 above.

26        1)
          11. The EOC Pension Plan shall pay its liabilities and,


27        I
     upon such payment, the EOC Pension Plan shall be terminatmi-
 1   11               12.     The United States' claim to and garnishment of monies

2    ,I in the Cal-Fed Account identified as item I1p1@in paragraph 5
     I



3 \I above shall be released.
                      13.     The United States and the EOC Defendants shall take
4 11
                 all measures necessary to effectuate the disposition of the EOC
                 Defendants1 monies as set forth in this Agreement, including
                 providing to each other and to non-parties such releases,
                 authorizations, instructions, stipulations, agreements and
                 cooperation as required.
                       14.     For a period of three years from the effective date of

l1       !Iithis Agreement, the EOC Defendants, by themselves individually
            or by forming or acting through an affiliate (as 'IaffiliateN is
12 1
         I
13       I defined
         I
                             in the Federal Acquisition Regulation, 45 C.F.R.
         11 5 620.105 (b)) shall not:          a) submit any proposals for, or
14 1
                  solicit, bid on, or receive, a grant, contract, or cooperative

16
         1        agreement with any agency of the United States government; and

17 I
    I
         '1
   ib) be among the senior, key or supervisory personnel on a grant,
    :contract, or cooperative agreement with any agency of the United
18 !I
19
         i1l
      States government. This provision shall constitute a I1voluntary

20       1
   lexclusionll
         1
                   as that term is used in 45 C.F.R. part 620 (as
      amended). Violation of this provision shall be grounds for
21
      debarment under 45 C.F.R. part 620 (as amended) in addition to
22
    ' a n y remedy under this Agreement and its effectuating court
             I
23
24 order.    I/
                       15.     The United States hereby waives, releases and promises
             I
             i to    refrain from instituting, prosecuting or maintaining any
26

27           1
             'civil, criminal or administrative claim, action or suit under
 1   I!' the False Claims Act,      3 1 U.S.C.   5 .3729 & seq., federal common

 2 I!I law, or other applicable statute or regulation, that the United
    I
    'States has or may have against any of the EOC Defendants or
3 11i
    'their current or former shareholders, officers, directors,
 4 11

 5 I
     1 agents, employees, attorneys, consultants, affiliates ,
     'I
        successors and assigns for false statements or claims made in
 ti  !I connection with the participation of the EOC Defendants in the
 7 11
     1     Small Business Innovation Research program during any time prior
     \ ( t othe effective date of this Agreement, except for any claim,
      I
           action or suit on such obligations as are created by this
10 11

11
     1
     I,
           Agreement or court order arising therefrom.

12   I            16.    The EOC Defendants hereby waive, release and promise
           to refrain from instituting, prosecuting or maintaining any
13
           civil, criminal, or administrative claim, action or suit that
14
           they, individually or jointly, may have against the United
15

16   1        States or any of its agents, employees or attorneys in
     lconnection with the participation or contracts, qrants or
17 1
   'I cooperative          agreements of the EOC Defendants in the Small
18 Ii
              Business Innovation Research program or with the civil action CV
19
              94-0804-RAP, including its investigation prior to complaint and
20

21
      1       the obtaining of pre- judgment remedies thereunder, except for
         llany claim, action or suit on such obligations as are created by
22

23
      1       this Agreement or court order arising therefrom.

24    11           17.   All currently suspended contracts, grants or
              cooperative agreements between any agency of the United States
25

26       /I   government and any of the EOC defendants are hereby terminated,
llj             and EOC defendants shall not receive any further funds from such

2 1)'contracts, grants or cooperative agreements.

3     11             18.   Nothing in this Agreement is intended to affect, nor
       !
                shall the Agreement be construed to affect, any liability that
4 ll
      "any of the EOC Defendants has or may have under the Internal
      1
5
6     1/        Revenue Laws, Title 26 of the united States Code.

7     /I             19.   In no event are the terms of this Agreement intended

      /I        to, nor are they to be construed to, work a release of liability

      !I
      :I
                or in any way create a benefit in favor of any person,
                corporation, or business entity except as to the parties to this
10 11
      jl
11 Agreement.
      I
                     20.   This Agreement shall become effective upon the entry

l3     1        by the Court in CV 94-0804-RAP of an order of dismissal of that
   action with prejudice as to all the EOC Defendants and an order
14
                to effectuate the disposition of the EOC Defendants8 monies as
15
16
       1        set forth in this Agreement.

17 I . 1             21.   Each person who signs this Agreement i n . a
           'irepresentativecapacity warrants that he or she is duly
18 11
   11 authorized to do so.
19 1            '




20         11        22.   This Agreement shall be binding upon and inure to the
                benefit of the heirs, trustees, executors, administrators,
21
           ~~successors,
                       and assigns of the respective parties hereto.
22
23         I(        23.   The United States and the EOC Defendants agree that
           !Ithe Court for the underlying action CV 94-0804-RAP shall have
24 11
                              over any action regarding this Agreement.
 1 I1         24.     This Agreement may be executed in counterparts with
    'the same force and effect as if all signatures appeared on the
2 11
      same document.
3 11
      DATED: March %' , 1996.      NORA M. MANELLA
4 11                               United States Attorney
    I
                                   LEON W. WEIDMAN
5 11                               Assistant United States Attorney
                                   Chief, Civil Division
6 1                                HOWARD F. DANIELS
7
    I
     1
     I

                                   Assistant United States Attorney
                                   Chief, Civil Fraud Section


                                             HONG S. J$E$i /
                                             ~ssistantdn-itedstates Attorney

11 I'
     1
12   I
13
     I
     I



     1 DATED:       March   13   , 1996.

14
15   1
     1
     APPROVED AS TO
                                             by its President, William S. Cnh;(

16 1 FORM AND CONTENT
         DATED:     March   r7, 1996-
18

19

                                                    y for Defendant
                                                           Corp.


         DATED:     March   15   ,   1996.

                                             Defendant William S. Chan
APPROVED AS TO
FORM AND CONTENT
DATED:   March        !   1 ,       1996. LAW OFFICES OF EDWARD ROBINSON


                                            EDWARD ROBINSON, ESQ            .
                                            Attorney for Defendant
                                            William S. . Chan
                                                         .. .. . .


                          jy , 1996.                             '-I
DATED:   March
                                                  --,,
                                                 J.
                                                         . . .
                                                      I . hi,        ,..y/
                                                                        ,
                                            " - D M n d a n tFelicia Chan
                                                                         (kd2
                                                                                .I
                                                                                     -
APPROVED AS TO
FORM AND CONTENT                .
DATED:   March                  ,   1996.
                                             Q o u L. L L~ r i i L, 2 - I L
                                            ROBERT L. CITROEN, 'ESQ.
                                            Attorney for Defendant
                                            Felicia Chan

DATED: March      /       9 , 1996.
                                             Dexendant Michael 'Lee
APPROVED AS TO
FORM AND CONTENT
DATED: March     Id(        ,       1996.    LAW OFFICES OF SCOTT S. FURSTMAN

                                                         /A/
                                                      S. FURSTMAN, ESQ.
                                             Attorney for Defendant
                                             Michael Lee
